No. 20-1158

 

 

IN THE

Supreme Court of the Anited States

THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,

Petitioner,
v.

WILL MCRANEY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT

BRIEF OF AGUDATH ISRAEL OF AMERICA AND
TORAH UMESORAH AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document
contains 3,192 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 20, 2021.

Ade

Colin Casey ‘Hogan
Wilson-Epes Printing Co., Inc.

  
